CERTIFICATE OF SERVICE
No. TBD
Timothy Dasler
Petitioner,
v.
Jennifer Dasler
Respondent.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Timothy
Dasler Petition for Writ of Certiorari, by mailing one (1) true and correct copy of the same by
Fedex 2-Day, prepaid for delivery to the following address.
John Loftus
Brannen & Loftus, PLLC
One Maple Street
Hanover, NH 03755
(603) 277-2971
Counselfor Jennifer Dasler

ian

ir

:har

August 2, 2021
SCP Tracking: Dasler-488 NH Route 10 Apt D-Cover White

